Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MANUFACTURER SAFEGUARDS
    MAY NOT PREVENT
COPAYMENT COUPON USE FOR
     PART D DRUGS




                    Daniel R. Levinson
                     Inspector General

                     September 2014
                     OEI-05-12-00540
EXECUTIVE SUMMARY: MANUFACTURER SAFEGUARDS MAY NOT
PREVENT COPAYMENT COUPON USE FOR PART D DRUGS
OEI-05-12-00540

WHY WE DID THIS STUDY
Pharmaceutical manufacturers offer copayment coupons to reduce or eliminate the cost of
patients’ out-of-pocket copayments for specific brand-name drugs. The anti-kickback
statute prohibits the knowing and willful offer or payment of remuneration to a person to
induce the purchase of any item or service for which payment may be made by a Federal
health care program. Manufacturers may be liable under the anti-kickback statute if they
offer coupons to induce the purchase of drugs paid for by Federal health care programs,
including Medicare Part D. The anti-kickback statute applies to all Federal health care
programs, but this study focused on Part D. The use of coupons by Medicare
beneficiaries could impose significant costs on the Part D program because many
coupons encourage beneficiaries to choose more expensive brand-name drugs over less
expensive alternative drugs. In two surveys by outside groups, approximately 6 percent
to 7 percent of seniors surveyed reported using coupons to purchase prescription drugs.

HOW WE DID THIS STUDY
To identify the safeguards pharmaceutical manufacturers employ to prevent their
copayment coupons from being used for drugs paid for by Part D and to identify
vulnerabilities in those safeguards, we surveyed 30 manufacturers of the top 100 Part D
brand-name drugs with coupons and with the highest Medicare expenditures. We also
reviewed selected safeguards offered for a purposive sample of those drugs. In addition,
we interviewed staff at various organizations involved in pharmacy claims transactions to
understand other vulnerabilities associated with coupon use in Part D.

WHAT WE FOUND
Pharmaceutical manufacturers’ current safeguards may not prevent all copayment
coupons from being used for drugs paid for by Part D. All surveyed manufacturers
provide notices directed to beneficiaries and pharmacists that coupons may not be used in
Federal health care programs. Most surveyed manufacturers use pharmacy claims edits
to prevent coupons from being processed for drugs covered by Part D. Most of these
edits may not prevent all coupons from being processed for Part D-covered drugs.
Finally, Part D plans and other entities cannot identify coupons within pharmacy claims.

WHAT WE RECOMMEND
The Office of Inspector General’s concurrent Special Advisory Bulletin affirms that
pharmaceutical manufacturers are at risk of sanctions if they fail to take appropriate steps
to ensure that their copayment coupons do not induce the purchase of Federal health care
programs items or services, including but not limited to, drugs paid for by Medicare
Part D. For this reason, manufacturers may engage industry stakeholders and the Centers
for Medicare & Medicaid Services (CMS) in an effort to identify a solution to ensure that
coupons are not used for drugs paid for by Part D. CMS should cooperate with industry
stakeholder efforts to improve the reliability of pharmacy claims edits and make coupons
transparent. CMS concurred with our recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................10 

           All surveyed manufacturers provide notices to beneficiaries and 

           pharmacists that copayment coupons may not be used in Federal 

           health care programs ......................................................................10 

           Most surveyed manufacturers use pharmacy claims edits to prevent 

           copayment coupons from being processed for drugs paid for by 

           Part D .............................................................................................15 

           Surveyed manufacturers’ pharmacy claims edits may not prevent 

           copayment coupons from being processed for drugs paid for by 

           Part D .............................................................................................17 

           Part D plans and other entities cannot identify copayment coupons 

           within pharmacy claims .................................................................19 

Conclusion and Recommendation .............................................................22 

           Agency Comments and Office of Inspector General Response.....24 

Appendixes ................................................................................................25 

           A: Discussion on Data Collection and Analysis ...........................25 

           B: Agency Comments ...................................................................28 

Acknowledgments......................................................................................29 

                  OBJECTIVES
                  1.	 To describe safeguards pharmaceutical manufacturers employ to
                      prevent copayment coupon use for drugs paid for by Medicare Part D.
                  2.	 To identify vulnerabilities in these safeguards.
                  3.	 To identify any other vulnerabilities associated with copayment
                      coupon use for drugs paid for by Medicare Part D.

                  BACKGROUND
                  Pharmaceutical manufacturers offer copayment coupons to reduce or
                  eliminate the cost of patients’ out-of-pocket copayments for specific
                  brand-name drugs and thereby induce the purchase of those drugs.
                  Although coupons reduce individual patients’ immediate costs, coupons
                  may increase the cost of prescription drugs for health insurers, including
                  those offering Medicare prescription drug coverage through Part D plans.1
                  The anti-kickback statute prohibits knowing and willful solicitation,
                  receipt, offer, or payment of remuneration to induce the purchase of any
                  item or service for which payment may be made in whole or in part under
                  a Federal health care program.2 Pharmaceutical manufacturers may be
                  liable under the anti-kickback statute if they offer coupons to induce the
                  purchase of drugs paid for by Medicare Part D or any other Federal health
                  care program.3
                  Recent surveys by outside organizations found that approximately
                  6 percent to 7 percent of surveyed seniors reported using manufacturer
                  coupons toward their copayment for prescription drugs purchased through




                  1
                    Joseph S. Ross and Aaron S. Kesselheim, “Prescription Drug Coupons – No Such Thing 

                  as a Free Lunch,” The New England Journal of Medicine, August 28, 2013, 

                  http://www.nejm.org/doi/pdf/10.1056/NEJMp1301993. Accessed on August 30, 2013. 

                  David Grande, “The Cost of Drug Coupons,” JAMA, June 13, 2012, 

                  http://jama.jamanetwork.com/article.aspx?articleid=1182868. Accessed on June 14, 

                  2012. These articles describe how the use of coupons to encourage brand-name drug

                  utilization could increase insurers’ costs. This description applies to Medicare Part D, 

                  which uses an insurance model to provide prescription drug benefits.

                  2
                    42 U.S.C. § 1320a-7b(b).

                  3
                    “Federal health care program” is defined in the anti-kickback statute as “(1) any plan or 

                  program that provides health benefits, whether directly, through insurance, or otherwise,

                  which is funded directly, in whole or in part, by the United States Government (other 

                  than the health insurance program under chapter 89 of title 5; or (2) any State health care 

                  program, as defined in section 1320a-7(h) of this title.” 42 U.S.C. § 1320a-7b(f). 



Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)            1
                  their Medicare prescription plans.4, 5 Applying these results to the
                  population of 36 million Part D beneficiaries, the utilization of copayment
                  coupons to obtain prescription drugs paid for by Part D could exceed
                  2 million beneficiaries.
                  Pharmaceutical manufacturers’ use of coupons to reduce the cost-sharing
                  obligations for Medicare Part D drugs could impose significant costs on
                  Federal health care programs and taxpayers. A 2013 study from The New
                  England Journal of Medicine found that 58 percent of coupons were for
                  brand-name drugs for which a lower cost generic alternative was
                  available.6 If manufacturer coupons encourage Medicare beneficiaries to
                  obtain more expensive brand-name drugs when lower cost alternatives are
                  available, the coupon may reduce individual beneficiaries’ immediate
                  out-of-pocket costs but Part D plans’ and the Part D program’s costs may
                  increase, ultimately increasing costs to taxpayers.7
                  Medicare Part D Cost Controls
                  CMS contracts with private insurance companies, called sponsors, to
                  provide Part D prescription drug benefits for approximately 36 million
                  beneficiaries.8, 9 Sponsors use a variety of methods to control prescription
                  drug coverage costs through the Part D program.
                  Part D Formularies. Sponsors can establish formularies, or lists of
                  covered drugs, to give preference to more effective drugs over less
                  effective drugs or less expensive drugs over more expensive drugs that
                  treat the same condition. To drive utilization toward equally effective but
                  less expensive drugs, formularies are generally organized into tiers, which
                  have different beneficiary copayments for a prescription drug. Drugs in
                  lower tiers are typically the least expensive and have the lowest
                  beneficiary copayments. Drugs in the subsequent and ascending tiers are,

                  4
                    National Coalition on Health Care (NCHC), “Seniors’ Awareness And Use of
                  Prescription Co-pay Coupons in Medicare,” Survey. March 26-30, 2012.
                  5
                    Pharmaceutical Care Management Association (PCMA), “Survey of Seniors Enrolled in
                  the Medicare Prescription Drug Plan,” Survey. February 15-17, 2011.
                  6
                    Joseph S. Ross and Aaron S. Kesselheim, “Prescription Drug Coupons – No Such Thing
                  as a Free Lunch,” The New England Journal of Medicine, August 28, 2013,
                  http://www.nejm.org/doi/pdf/10.1056/NEJMp1301993. Accessed on August 30, 2013.
                  7
                    Joseph S. Ross and Aaron S. Kesselheim, “Prescription Drug Coupons – No Such Thing
                  as a Free Lunch,” The New England Journal of Medicine, August 28, 2013,
                  http://www.nejm.org/doi/pdf/10.1056/NEJMp1301993. Accessed on August 30, 2013.
                  David Grande, “The Cost of Drug Coupons,” JAMA, June 13, 2012,
                  http://jama.jamanetwork.com/article.aspx?articleid=1182868. Accessed on June 14,
                  2012.
                  8
                    The Part D program was established as part of the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003, P.L. 108-173 § 101; Social Security Act,
                  § 1860D-1 and it was codified at 42 U.S.C. § 1395w-101 et seq.
                  9
                    42 U.S.C. § 1395w-101 et seq.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)     2
                  in general, relatively more expensive and have increasing beneficiary
                  copayments. For example, a lower tier drug is typically a low-cost generic
                  drug for which a beneficiary might have a $5 or $10 copayment, while a
                  higher tier drug is likely to be a more expensive brand-name drug for
                  which a beneficiary might have a $45 copayment.
                  Generic Substitution. Sponsors can control prescription drug costs by
                  requiring less expensive, chemically equivalent generic drugs to be
                  substituted for costlier brand-name drugs. Generic substitution may
                  reduce the amounts that both Part D plans and beneficiaries pay for
                  covered drugs. For instance, the average brand-name drug prescription
                  costs $89, while the average generic drug prescription costs $23, a
                  difference of $66.10
                  Beneficiary Copayments in Part D
                  Beneficiaries, Part D plans, and CMS share Part D prescription drug
                  coverage costs. Beneficiary cost sharing begins in the initial benefit stage,
                  which beneficiaries reach after paying their deductible. Beneficiaries’
                  cost-sharing responsibilities for covered drugs then change as they move
                  through different stages of the Part D benefit.11
                  During the initial benefit stage, beneficiaries pay copayments for
                  prescription drugs on the basis of factors such as whether the drug is a
                  generic or a brand, which formulary tier the drug is on, and whether the
                  pharmacy is preferred or nonpreferred by the Part D plan.12, 13, 14
                  After reaching an initial coverage limit set in statute, beneficiaries
                  typically enter the coverage gap stage where their cost-sharing
                  increases.15, 16 In this stage, in 2013, pharmaceutical manufacturers
                  provided beneficiaries a 50-percent discount on applicable drugs
                  (generally, covered brand-name drugs) at the point of sale.17 For most
                  generic drugs, in 2013, beneficiaries were responsible for 79 percent of the
                  cost as their copayment.18

                  10
                     Congressional Budget Office, Effects of Using Generic Drugs on Medicare’s
                  Prescription Drug Spending, September 2010, p. 8.
                  11
                     42 CFR § 423.104.

                  12
                     See, e.g., CMS, Copayment/coinsurance in drug plans, http://www.medicare.gov/part­
                  d/costs/copayment-coinsurance/drug-plan-copayments.html. Accessed on April 24, 

                  2014. 

                  13
                     42 CFR § 423.104(d)(2)(ii). 

                  14
                     42 CFR § 423.120(a)(9).

                  15
                     42 U.S.C. § 1395w-102(b)(2)(A). 

                  16
                     See, e.g., CMS, Costs in the coverage gap, http://www.medicare.gov/part­
                  d/costs/coverage-gap/part-d-coverage-gap.html. Accessed on April 30, 2014. 

                  17
                     42 U.S.C. § 1395w-114a. 

                  18
                     42 U.S.C. § 1395w-102(b)(2)(C). 



Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)           3
                  The coverage gap continues until beneficiaries’ true out-of-pocket
                  (TrOOP) spending reaches the annual TrOOP threshold.19 Generally, for
                  brand-name drugs, the full amount of drug costs, including the
                  out-of-pocket amount beneficiaries paid, counts toward their TrOOP.20 For
                  generic drugs, only the out-of-pocket amount counts toward beneficiaries’
                  TrOOP thresholds.
                  After reaching the TrOOP threshold, beneficiaries enter the catastrophic
                  benefit stage.21 During catastrophic coverage, the Part D program pays the
                  majority of beneficiaries’ drug costs and beneficiaries are generally
                  responsible for limited cost sharing through copayments.
                  Copayment Coupons
                  Pharmaceutical manufacturers typically offer copayment coupons to
                  insured patients to reduce or eliminate patients’ out-of-pocket costs for
                  specific brand-name drugs. Manufacturers may contract with coupon
                  vendors to create and administer coupon programs on their behalf.
                  (“Manufacturers” includes all manufacturers or vendors acting on their
                  behalf.) A manufacturer may offer a coupon for a brand-name drug that
                  reduces the copayment for that drug and makes it cheaper than the
                  copayment for a competitor drug. For example, a coupon may reduce a
                  patient’s copayment for Brand Drug A from $20 to $4, making the
                  copayment for the brand drug cheaper than the copayment for a generic
                  equivalent, which may be $10. In some cases, the coupon eliminates the
                  copayment altogether.
                  Pharmaceutical manufacturers may offer copayment coupons for several
                  reasons. It has been reported that manufacturers may use coupons to try to
                  retain market share when generic and other brand-name drugs that treat
                  the same condition become available to patients. It also has been reported
                  that manufacturers may use coupons to attract new patients who may be
                  using an alternative therapy. Additionally, manufacturers indicate that
                  they offer coupons to encourage patients to adhere to their prescription
                  drug regimen. Finally, it has been reported that manufacturers may offer



                  19
                     For 2013, the TROOP threshold was $4,750. Generally, TrOOP spending includes all

                  beneficiary payments (excluding monthly premiums) and any payments made by other

                  approved payers, such as health savings accounts and certain charities. 42 CFR §

                  423.104(d)(5)(B)(iii); CMS, Medicare Prescription Drug Benefit Manual, 

                  Pub. No. 100-18, ch. 5, § 30. 

                  20
                     See, e.g., CMS, Costs in the coverage gap, http://www.medicare.gov/part­
                  d/costs/coverage-gap/part-d-coverage-gap.html. Accessed on April 30, 2014.
                  21
                     See, e.g., CMS, Catastrophic coverage, http://www.medicare.gov/part­
                  d/costs/catastrophic-coverage/drug-plan-catastrophic-coverage.html. Accessed on
                  May 9, 2014.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)      4
                  coupons to offset the high cost of specialty and biologic drugs, which may
                  not have generic alternatives.22
                  Copayment coupons have become increasingly prevalent. In recent years,
                  the number of coupons has increased from 86 in July 200923 to 525 in
                  December 2012.24 This increase may be related to competition from
                  generic drugs. From 2009 to 2012, numerous “blockbuster” drugs—drugs
                  that have generated $1 billion in sales—lost their patent protection. For
                  many of those drugs, generic versions became available. The number of
                  generic drugs the Food and Drug Administration (FDA) approved
                  increased 27 percent between 2009 and 2012.25 
                  Copayment Coupon Formats. Copayment coupons typically are available
                  in four formats: (1) print coupons, (2) electronic coupons, (3) debit cards,
                  and (4) direct reimbursements. Print coupons are printed cards or
                  documents that the patient physically takes or sends to the pharmacy to
                  purchase a prescription drug. Electronic coupons are cardless programs
                  that evaluate prescription drug claims as they are submitted through the
                  pharmacy claims transaction system, which applies copayment reductions.
                  Debit cards include any prepaid and/or bank-authorized card that is
                  processed at the point of sale to pay for some predetermined portion of the
                  copayment. Direct reimbursements are any payments by a manufacturer
                  offered directly to a patient for all or part of the patient’s out-of-pocket
                  cost for a purchased prescription drug. Direct reimbursements occur after
                  a prescription drug is purchased and generally do not involve pharmacies.
                  Most coupons offered by manufacturers are typically in the format of print
                  coupons. Manufacturers offer electronic coupons to a lesser extent. A
                  small number of coupons are offered in the format of debit cards and
                  direct reimbursements. See Table 1, on the next page, for a breakdown of
                  the prevalence of coupon formats among 30 manufacturers surveyed by
                  the Office of Inspector General (OIG).




                  22
                     Biologics are among the most expensive drugs available. The average cost of a
                  biologic drug is about 22 times that of nonbiologic drugs. “Health Policy Brief:
                  Biosimilars,” Health Affairs, October 10, 2013,
                  http://healthaffairs.org/healthpolicybriefs/brief_pdfs/healthpolicybrief_100.pdf.
                  Accessed on December 6, 2013.
                  23
                     Cleveland Research Company, “Co-Pay Cards: The Past, Present, and Future,” March
                  2012.
                  24
                     OIG analysis of drugs available on http://www.internetdrugcoupons.com.
                  25
                     OIG analysis of 2009 to 2012 FDA Abbreviated New Drug Approvals (ANDAs) by
                  month available at
                  http://www.accessdata.fda.gov/scripts/cder/drugsatfda/index.cfm?fuseaction=Reports.Re
                  portsMenu.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)       5
                  Table 1: Coupon Formats for Manufacturers Surveyed by OIG

                                                Number of Manufacturers           Percentage of All Coupons
                   Coupon Format
                                                               Offering            Offered by Manufacturers

                   Print                                                  27                           71%

                   Electronic                                             22                           26%

                   Debit Card                                               9                           2%

                   Direct
                                                                           16                           1%
                   Reimbursement

                  Source: OIG analysis of pharmaceutical manufacturer survey responses, 2013.

                  Accessing Copayment Coupons. Patients commonly access copayment
                  coupons in four ways. Patients may access or receive coupons from their
                  prescribing physicians. Patients also may access coupons through Web
                  sites and toll-free telephone numbers managed by manufacturers or
                  companies hired to manage their coupon programs. Finally, patients may
                  be given coupons by pharmacists filling their prescriptions.
                  Redeeming Copayment Coupons. Patients typically redeem copayment
                  coupons at pharmacies when they purchase prescription drugs. However,
                  patients do not always redeem coupons at pharmacies and may request
                  reimbursements directly from the manufacturer after purchasing
                  prescription drugs.
                  Copayment Coupons and Pharmacy Claims Processing
                  Copayment coupon claims are typically processed in the same way as
                  payments received from a secondary insurance source using the National
                  Council for Prescription Drug Programs (NCPDP) Telecommunication
                  Standard D.0 for pharmacy claims. Using this standard format, all
                  pharmacy claims, including coupon claims, are electronically routed from
                  the pharmacy to various payers by companies known as “switches.” Once
                  a claim is routed to a payer, the payer sends coverage and payment
                  information back to the pharmacy through the switch.
                  The processing of primary insurance and coupon claims occurs in real
                  time and involves several steps to coordinate payment for a single claim.
                  First, a patient’s primary insurance claim is processed, and the patient’s
                  copayment amount is determined. Second, the coupon claim is processed,
                  and how much of the copayment the manufacturer will pay is determined.
                  Finally, the patient pays the remaining copayment balance, if any. See
                  Figure 1, on the next page, for an illustration of how primary insurance
                  and coupon claims are processed.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)               6
Figure 1: Processing of Primary Insurance and Coupon Claims

                           1 Primary                                2 Coupon claim 
                           insurance claim                          processed 
                           processed 


                                  Switch                                 Switch


       Primary                                       Pharmacy                                     Coupon 
     Insurance / 
        Part D
Source: OIG analysis of interview responses, 2013.

                      The coordination of primary insurance and coupon or secondary payers is
                      facilitated by unique identifiers that route the claim to the entity
                      responsible for paying the claim. One identifier is the Bank Identification
                      Number (BIN), which identifies the responsible payer. Primary insurers,
                      including Part D plans, have BINs that route primary insurance claims to
                      them for payment. Manufacturers also have BINs that route their coupon
                      claims to them for payment. The Processor Control Number (PCN) is a
                      secondary identifier that is internal to an insurance company or
                      manufacturer and further routes the claim within that company.
                      To attempt to determine a patient’s Part D enrollment status before
                      submitting a coupon claim, a pharmacist may submit an optional
                      enrollment verification request, called an E1 transaction, to the Part D
                      Transaction Facilitator. CMS contracts with the Transaction Facilitator to
                      track Part D beneficiaries’ benefit stages and to conduct E1 transactions,
                      which provide pharmacists with information about a patient’s Part D
                      enrollment status.26 The pharmacist submits the patient’s identification
                      information to the Transaction Facilitator, which compares it to patient
                      information in CMS’s Medicare enrollment database to determine whether
                      the patient is enrolled in Part D. Pharmacies pay less than 1 cent per
                      transaction to submit this verification request.27




                      26
                        CMS, Medicare Prescription Drug Benefit Manual, Pub. No. 100-18, ch. 14, § 30.4.
                      27
                        CMS, Changes Involving Medicare Eligibility Queries (E1) and Other TrOOP
                      Facilitator-related Transactions, December 9, 2010,
                      http://www.cms.gov/Medicare/Prescription-Drug­
                      Coverage/PrescriptionDrugCovContra/Downloads/MemoE1ChangesTipSheet_120910.p
                      df. Accessed on November 30, 2012.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)             7
                  METHODOLOGY
                  Scope
                  The anti-kickback statute applies to all Federal health care programs, but
                  this study focused on Medicare Part D. This study analyzed the
                  copayment coupon safeguards of pharmaceutical manufacturers for the
                  most costly brand-name Part D prescription drugs with coupons covered in
                  2012. These prescription drugs were covered under stand-alone
                  prescription drug plans and Medicare Advantage prescription drug plans.
                  The study did not include coupons for generic drugs because copayment
                  coupons are not commonly offered for generic drugs. This study did not
                  estimate the use of coupons by Part D beneficiaries. It also did not
                  estimate the overall cost of coupons to Part D plans and the Part D
                  program.
                  Data Collection and Analysis
                  We collected information on safeguards pharmaceutical manufacturers
                  employ to prevent copayment coupon use for drugs paid for by Medicare
                  Part D through a survey of manufacturers and a review of copayment
                  coupons and coupon Web sites. We collected information on other
                  vulnerabilities through interviews with a variety of industry stakeholders.
                  We sent an online survey to 34 pharmaceutical manufacturers of drugs
                  with coupons, and 30 responded. We selected these manufacturers by
                  identifying the manufacturers offering the top 100 Part D-covered
                  brand-name drugs with coupons by cost to Part D. The 30 complete
                  surveys we received represented an 88-percent response rate. We
                  analyzed survey responses to determine the extent to which manufacturers
                  surveyed had safeguards in place to prevent the use of coupons for drugs
                  paid for by Part D.
                  We also reviewed safeguards in place for a subset of the top 100
                  Part D-covered brand-name drugs with coupons. We attempted to obtain
                  50 coupons to determine the extent to which manufacturers had safeguards
                  directed to beneficiaries and pharmacists in place. We reviewed these
                  safeguards for the 40 coupons that we obtained.
                  In addition, we conducted structured interviews with staff at organizations
                  involved in the pharmacy claims transaction process, including
                  pharmacists, coupon vendors, a switching company, and NCPDP, to
                  understand other vulnerabilities associated with coupon use in Part D.
                  For a discussion of our data collection and analysis, see Appendix A.
                  Data Limitations
                  Although we did not verify manufacturers’ survey responses, we selected a
                  sample of coupons offered by surveyed manufacturers to review


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   8
                  safeguards on or associated with coupons. We used this information to
                  confirm the accuracy of manufacturers’ responses. We could not review
                  safeguards that were not on coupons or on coupon Web sites. For these
                  safeguards, this report relies on self-reported data.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   9
                      FINDINGS
                      All surveyed manufacturers provide notices to
                      beneficiaries and pharmacists that copayment
                      coupons may not be used in Federal health care
                      programs
                      All manufacturers surveyed report providing notices directed to Federal
                      health care program beneficiaries or pharmacists for at least one of the
                      coupon formats they offer. These notices state that copayment coupons
                      may not be used to purchase drugs paid for by Federal health care
                      programs, including Medicare Part D. Notices to beneficiaries and
                      pharmacists are more prevalent for print coupons, which is the most
                      commonly offered coupon format according to manufacturers surveyed.
                      Notices are still widely used for other formats, but to a lesser extent. See
                      Table 2 for the percentages of surveyed manufacturers that report using
                      notices for the coupon formats they offer.
Table 2: Notices by Coupon Format

                                                                                                Direct
                                           Print          Electronic      Debit Card                        Any Format
                                                                                        Reimbursement
Notice                                    n = 27              n = 22            n=9                              n = 30
                                                                                                n = 16

Beneficiary Notices                   27 (100%)             16 (73%)          8 (89%)         13 (81%)       30 (100%)
                                                                                                       28
Pharmacist Notices                     18 (67%)               7 (32%)         2 (22%)            N/A          20 (67%)

Source: OIG analysis of pharmaceutical manufacturer survey responses, 2013.

                      Notices Directed to Beneficiaries. Manufacturers’ notices directed to
                      beneficiaries are typically printed on coupons or on materials associated
                      with coupons, such as coupon brochures, Web sites, or advertisements.
                      Notices also can be triggered by eligibility questions asked online or over
                      the telephone. Eligibility questions may ask patients: “Do you purchase
                      your prescription medication through Medicare, Medicaid, or a similar
                      Federal or State prescription drug program?” If patients indicate that they
                      are enrolled in Federal health care programs, these manufacturers notify
                      them that they are not eligible to access the coupon.
                      OIG’s review of 40 coupons offered by surveyed manufacturers found
                      results similar to the survey responses. Nearly all of the coupons OIG
                      obtained had a notice printed on them, and 80 percent had a notice printed
                      on the coupon Web site. Further, 75 percent had an eligibility question
                      online or over the phone. However, only 3 percent had a tracking
                      mechanism on their Web sites to prevent a patient from changing his or
                      her answer to the eligibility question to obtain the coupon.

                      28
                         Notices to pharmacists do not pertain to direct reimbursements because direct
                      reimbursements are not adjudicated by the pharmacy.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)                      10
                  Manufacturers’ notices to beneficiaries are typically printed in small font.
                  In some instances, notices are printed on the back of a coupon. See
                  Figure 2 for an example of a coupon with a notice printed in small font on
                  the back. This coupon is approximately the size of a credit card.
                  Figure 2: Example of a Coupon With a Notice Printed in Small Font on
                  Back of Coupon




                                                                                                 Notice to
                                                                                                beneficiaries




                      Source: OIG review of manufacturers’ copayment coupon safeguards, 2013.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)             11
                   In some instances, notices to beneficiaries, particularly those downloaded
                   and printed from the Internet, are on pages following the coupons and not
                   on the coupons themselves. See Figure 3 for an example of a coupon and
                   a notice on the following page. The actual size of each page below is
                   8½ by 11 inches.
                   Figure 3: Example of a Coupon With a Notice Printed on Following Page




                                                                                                                                 Notice to
                                                                                                                                beneficiaries




          LIPITOR $4 Co-Pay Card TERMS AND CONDITIONS
          By using the LIPITOR $4 Co-Pay Card (the “Card”), you acknowledge that you currently meet the eligibility criteria
          and will comply with the terms & conditions described below:

          This Card is not valid for prescriptions that are eligible to be reimbursed, in whole or in part, by Medicaid, Medicare or
          other federal or state healthcare programs (including any state prescription drug assistance programs and the
          Government Health Insurance Plan available in Puerto Rico [formerly known as “La Reforma de Salud”]).

          The Card is not valid for prescriptions that are eligible to be reimbursed by private insurance plans or other health or
          pharmacy benefit programs which reimburse you for the entire cost of your prescription drugs.

                   Source: OIG review of manufacturers’ copayment coupon safeguards, 2013.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)                            12
                  Notices Directed to Pharmacists. Two-thirds of manufacturers surveyed
                  report providing notices to pharmacists for at least one of the coupon
                  formats they offer. See Table 2, on page 9, for the percentage of survey
                  manufacturers that report using notices to pharmacists broken out by
                  coupon format.
                  Manufacturers’ notices to pharmacists typically include reminders to
                  pharmacists not to accept coupons for drugs paid for by Federal health
                  care programs. These notices may include statements such as “Do not
                  process coupon if Government beneficiary.” Or, they may include more
                  specific language, such as “Pharmacist: When you use this card, you are
                  certifying that you have not submitted and will not submit a claim for
                  reimbursement under any Federal, State, or other Governmental programs
                  for this prescription.” Notices to pharmacists can be printed on coupons
                  or on associated materials. They also may appear as alerts to pharmacists
                  through the pharmacy claims transaction system.
                  OIG’s review of the 40 coupons obtained found that slightly more than
                  half, or 58 percent, of coupons we reviewed had notices with specific
                  language directed to pharmacists.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   13
                     Manufacturers’ notices to pharmacists, in some instances, are printed in
                     small font among other types of information, such as instructions on how
                     to process the coupon. See Figure 4 for an example of a coupon with a
                     notice printed among instructions to pharmacists. The actual size of the
                     coupon below is 8½ by 11 inches.
Figure 4: Example of a Coupon With a Notice Printed Among Instructions to Pharmacists




                                                                                                  Instructions to
                                                                                                   pharmacists
                                                                                                  about coupon
                                                                                                    processing




                                                                                                   Notice to
                                                                                                  pharmacists




Source: OIG review of manufacturers’ copayment coupon safeguards, 2013.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)      14
                        Additionally, manufacturers’ notices may be sent through alert messages
                        within the pharmacy claims transaction system. Studies show that
                        pharmacists may experience “alert fatigue” because of the high volume of
                        drug alert notices that appear through the pharmacy claims transaction
                        system.29 A notice to check enrollment status in Federal health care
                        programs may be one of the many notices that pharmacists receive.
                        Manufacturers’ notices to beneficiaries and pharmacists only communicate
                        information stipulating the terms and conditions of copayment coupons.
                        These notices cannot necessarily stop coupons from being processed to
                        purchase drugs paid for by Federal health care programs.
                        Most surveyed manufacturers use pharmacy claims
                        edits to prevent copayment coupons from being
                        processed for drugs paid for by Part D
                        Most surveyed manufacturers report having edits in the pharmacy claims
                        transaction system to prevent the use of copayment coupons for drugs paid
                        for by Part D. Twenty-eight of thirty manufacturers surveyed use claims
                        processing edits for at least one of the coupon formats they offer. Of these
                        manufacturers, 13 offered specific information about their edits. More of
                        these manufacturers report using edits for print coupons than for other
                        coupon formats. See Table 3 for information about a breakdown of these
                        edits by coupon formats offered.
Table 3: Claims Processing Edits by Coupon Format

                                                                                                Direct
                                         Print            Electronic      Debit Card                     Any Format
                                                                                        Reimbursement
Edit                                    n = 27                n = 22            n=9                           n = 30
                                                                                                n = 16
Primary Insurance
                                       7 (26%)                3 (14%)         1 (11%)          2 (13%)       9 (30%)
Information
Benefit Stage Information              5 (19%)                3 (14%)          0 (0%)           1 (6%)       6 (20%)

Patient Date of Birth                  4 (15%)                 1 (5%)          0 (0%)           0 (0%)       5 (17%)

Source: OIG analysis of pharmaceutical manufacturer survey responses, 2013.

                        All of the manufacturers that offered specific information about their
                        claims processing edits use proxies to approximate Part D coverage. The
                        data these manufacturers’ edits use as proxies are routinely transmitted on
                        pharmacy claims and include information about a patient’s primary
                        insurance, Part D benefit stage, and date of birth. Manufacturers rely on
                        proxies to approximate Part D coverage because they lack access to Part D
                        enrollment status. CMS indicated that Part D enrollment data are not



                        29
                           John R. Horn and Philip D. Hantse, “Making Computerized Screening Work for You,”
                        Pharmacy Times, February 2006, p. 26.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)                   15
                  available to manufacturers because they contain sensitive health care
                  information.30
                  Thirty Percent of Manufacturers Use Edits Relying on Primary Insurer’s
                  BIN. These manufacturers report having a claims processing edit that uses
                  the primary insurer’s BIN for at least one of the coupon formats they offer.
                  The primary insurer’s BIN is the only information identifying a patient’s
                  primary insurance that is transmitted to manufacturers on the coupon
                  claim. Manufacturers attempt to determine which BINs are used by
                  insurance companies that offer Part D plans by assembling lists of BINs
                  from previously adjudicated primary insurer pharmacy claims and other
                  sources, such as payer sheets.31 The edit compares the primary insurer’s
                  BIN on the coupon claim to the list of collected BINs. If the edit identifies
                  that the primary insurer’s BIN represents an insurance company that offers
                  a Part D plan, the claims processing system may automatically stop the
                  coupon from being processed and/or send a message to the pharmacist that
                  the patient is not eligible to use the coupon.
                  Four surveyed manufacturers report using an edit that relies on the
                  primary insurer’s BIN and PCN, the secondary identifier specifying
                  unique insurance plans offered by the same insurance company. The PCN
                  must be obtained from the primary insurance claim because it is not
                  transmitted on the coupon claim. These edits use the BIN and PCN in
                  combination to determine whether the primary insurance claim is being
                  submitted to a Part D plan or a commercial plan within the same insurance
                  company.
                  Twenty Percent of Manufacturers Use Edits Relying on the Part D Benefit
                  Stage. These manufacturers report having a claims processing edit that
                  uses Part D benefit stage information for at least one of the coupon
                  formats they offer. Benefit stage fields contain data only if the claim is for
                  a Part D beneficiary. If the edit identifies data in these fields, the edit
                  either automatically stops the coupon from being processed or sends a
                  message to the pharmacist to reverse the claim.
                  Seventeen Percent of Manufacturers Use Edits Relying on Patient Date of
                  Birth. These manufacturers report having an edit that uses the patient’s
                  date of birth for at least one of the coupon formats they offer.
                  Manufacturers use edits relying on patient’s date of birth to calculate a


                  30
                     Because Part D enrollment status is unavailable to manufacturers, those manufacturers
                  that did not offer specific information about their edits likely use proxies and face the
                  same challenges outlined in this report.
                  31
                     Payer sheets are templates created to help claims processors communicate necessary
                  claims processing information to pharmacies, vendors, and other entities. Information on
                  payer sheets can vary by insurance plan but generally contains the BIN.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)          16
                  patient’s age. Manufacturers may require pharmacists to submit the
                  patient date of birth as part of the coupon claim. If a pharmacy claim
                  indicates that the patient is at or older than a certain threshold—typically
                  age 62 or 65—these edits will either stop the coupon from being processed
                  or send a message to the pharmacist to verify Part D enrollment.
                  Surveyed manufacturers’ pharmacy claims edits may
                  not prevent copayment coupons from being
                  processed for drugs paid for by Part D
                  Pharmaceutical manufacturers’ claims processing edits currently in use
                  may not stop all coupons from being processed for drugs paid for by
                  Part D because manufacturers cannot accurately identify a beneficiary’s
                  Part D enrollment status. Manufacturers’ claims processing edits use
                  proxies that are substitutes for but do not replicate actual enrollment
                  information. These proxies use data that may be unreliable or cannot be
                  obtained by all manufacturers.
                  Claims Processing Edits Using Primary Insurance BINs Cannot Always
                  Accurately Identify Part D Coverage. Manufacturers’ claims processing
                  edits that use primary insurers’ BINs cannot always identify Part D
                  coverage because they may be unreliable proxies. These edits may not be
                  reliable because they use BIN lists that are collected at a point in time and
                  may not be accurate or current. Further, BINs may not provide the
                  specificity needed to determine whether a patient is enrolled in a Part D
                  plan. Coupon vendors report that the BIN indicates the insurance
                  company but does not, in most cases, distinguish a company’s Part D plan
                  from other commercial plans the company offers. To avoid stopping
                  coupon claims associated with commercial plans, manufacturers’ BINs
                  lists may contain only BINs known to be exclusively for insurance
                  companies’ Part D plans. For instance, one manufacturer reported that its
                  BIN edit relies on a list of BINs dedicated to Part D plans. Thus, this
                  manufacturer’s claims processing edit would allow coupons to be
                  processed for claims containing BINs for insurance companies that offer
                  both Part D and commercial plans.
                  Claims Processing Edits Using Patient Date of Birth Cannot Identify All
                  Part D Beneficiaries. Manufacturer claims processing edits that rely on
                  patient date of birth cannot always approximate Part D coverage. These
                  edits may not identify all Part D beneficiaries because not all Medicare
                  beneficiaries fit a specific age demographic. In fact, 17 percent of
                  Medicare beneficiaries are disabled and under age 65.32 Additionally,

                  32
                    Henry J. Kaiser Family Foundation, “Medicare at a Glance,” November 14, 2012,
                  http://kff.org/medicare/fact-sheet/medicare-at-a-glance-fact-sheet/. Accessed on
                  November 27, 2013.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)      17
                  some individuals who are eligible for Medicare may be enrolled in
                  commercial plans and not in Part D.
                  Some Claims Processing Edits Use More Accurate Proxies To Identify
                  Part D Coverage, but Cannot Be Used by All Manufacturers. Claims
                  processing edits that more accurately determine Part D enrollment are
                  imperfect because these edits use information that cannot be obtained by
                  all manufacturers. These edits rely on the more accurate proxies of
                  BIN/PCN and benefit stage information.
                  While edits that rely on the primary insurer’s BIN/PCN are more accurate
                  proxies, access to this combination of information is limited. To access
                  the BIN/PCN, a manufacturer’s coupon vendor needs to have access to
                  primary insurance claims because the PCN is not transmitted as part of the
                  coupon claim. OIG identified one entity with such access to the
                  BIN/PCN. This entity plays a dual role as a coupon vendor and a
                  switching company that electronically routes claims, giving it access to the
                  primary insurance claim containing the BIN/PCN that indicates Part D
                  insurance.
                  For other manufacturers’ coupon vendors to access the PCN, NCPDP
                  would need to revise its pharmacy claims transaction standards to enable
                  the PCN to be transmitted as part of the coupon claim. Revising the
                  NCPDP standards is an industrywide process that typically takes years to
                  complete and requires all involved entities to update their claims
                  transaction systems to comply with the new standards. The current
                  NCPDP standards were updated and released in 2009.
                  Edits that rely on benefit stage information also are more accurate proxies,
                  but access to this information also is limited. Although some
                  manufacturers report having this edit, it is unclear how they obtain benefit
                  stage information. As cited by NCPDP guidance, only entities that report
                  Part D beneficiaries’ financial TrOOP amounts are allowed to request or
                  receive this information, such as insurance companies that offer Part D
                  plans.33, 34
                  Other Vulnerabilities in Claims Processing Edits Exist. In addition to the
                  vulnerabilities associated with the proxies manufacturers use for edits,
                  there may be implementation errors in claims processing edits. Most
                  surveyed manufacturers have no way to verify that edits are being applied

                  33
                     NCPDP, “NCPDP WG9 Medicare Part D Questions and Answers,” Version 3.0,
                  August 2013, p. 12. Accessed at
                  http://www.ncpdp.org/members/wg09/NCPDP_WG9_Medicare_Part_D_FAQ_Documen
                  t_v3.0.pdf on January 30, 2014.

                  34
                     Entities that can obtain benefit stage information may include State pharmaceutical 

                  assistance programs.



Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)         18
                  correctly because they do not audit claims processing edits. Only
                  30 percent of manufacturers surveyed report having auditing practices in
                  place to analyze claims processing edits. These audits may include
                  reviews of processes used to identify and reject claims for Part D
                  beneficiaries or retrospective reviews that assess the number of coupons
                  processed and rejected as a result of the edits.
                  Part D plans and other entities cannot identify
                  copayment coupons within pharmacy claims
                  It is difficult for entities other than manufacturers to identify coupons as
                  they are processed through the pharmacy claims transaction system or after
                  they are adjudicated. Coupons are not transparent in the pharmacy claims
                  transaction system to entities other than manufacturers. This vulnerability
                  impedes other entities, including Part D plans, other primary insurers, and
                  pharmacies, from preventing the use of coupons for drugs paid for by
                  Part D and oversight entities, like CMS and OIG, from monitoring the use
                  of coupons.
                  Primary insurers, including Part D plans, cannot identify coupons as they
                  are processed or after they are adjudicated because of the way coupons are
                  processed. Coupons are typically processed as secondary insurance claims,
                  after a patient’s primary insurance claim, including Part D, has been
                  processed. Because of this, Part D plans, like other primary insurers, cannot
                  identify when a coupon is used. See Figure 5, on the next page, for an
                  illustration of how, as a coupon claim is processed, it is not submitted to
                  primary insurers.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   19
Figure 5: Transmission of Information Among Payers and Entities Coordinating Coupon
Claims Processing




                         1 Pharmacy submits          Pharmacy                3 Pharmacy submits 
                         claim for payment to                                claim for coupon 
                         primary insurance                                   payment to coupon 
                         via switch                                          vendor via switch




                                                     Switch
 Primary 
 Insurance /                                                                               Coupon 
 Part D Plans                                                                              Vendor
                      2 Primary Insurer receives                4 Vendor receives request 
                      request for payment and                   for payment and returns 
                      returns copayment amount                  copayment amount to 
                      to pharmacist via switch                  pharmacist via switch

Source: OIG analysis of interview responses, 2013.

                      Further, specific coupon formats may be difficult, or impossible, for
                      pharmacists dispensing to beneficiaries on behalf of Part D plans to identify
                      as coupon claims are processed through the pharmacy claims transaction
                      system. When pharmacies cannot identify coupons, they do not know to
                      attempt to verify Part D enrollment to prevent the use of coupons to
                      purchase drugs paid for by Part D. Coupon formats that are difficult to
                      identify include electronic coupons, debit cards, and direct reimbursements.
                      Electronic coupons may be difficult for pharmacists to identify because
                      they are automatically applied as prescriptions are submitted through the
                      pharmacy claims transaction system rather than being presented by
                      patients at the point of sale as with print coupons. Debit card coupons
                      may be difficult to identify because patients may use them to pay their
                      copayments without handing the card to the pharmacist. Finally, direct
                      reimbursements cannot be identified by pharmacists because they are
                      offered directly to patients and processed outside of the pharmacy claims
                      transaction system.
                      It is also difficult to identify coupons after they are adjudicated. As
                      previously stated, it not always possible to distinguish coupon claims from
                      secondary insurance claims because both manufacturers and insurers use


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)      20
                  BINs to route claims within the pharmacy claims transaction system.
                  Manufacturers currently do not disclose the BINs associated with their
                  coupons to outside entities. Compiling an accurate and comprehensive list
                  of BINs that route coupon claims without manufacturer involvement would
                  be challenging because coupons expire and BINs, while typically on print
                  coupons, are not generally found on other coupon formats. Because BINs
                  that route coupon claims are not distinguishable from BINs that route
                  insurance claims, entities that conduct oversight, such as CMS and OIG,
                  cannot analyze pharmacy claims to determine whether manufacturer
                  safeguards to prevent the use of coupons for drugs paid for by Part D are
                  effectively stopping the coupons.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   21
                  CONCLUSION AND RECOMMENDATION
                  The anti-kickback statute prohibits knowing and willful solicitation,
                  receipt, offer, or payment of remuneration to induce the purchase of any
                  item or service for which payment may be made in whole or in part under
                  a Federal health care program. Pharmaceutical manufacturers may be
                  liable under the anti-kickback statute if they offer coupons to induce the
                  purchase of drugs paid for by Medicare Part D or any other Federal health
                  care program.
                  Pharmaceutical manufacturers report that they employ safeguards directed
                  at preventing the use of copayment coupons for drugs paid for by Part D.
                  All surveyed manufacturers provide notices to beneficiaries and
                  pharmacists that coupons may not be used in Federal health care programs
                  for at least one of the coupon formats they offer. In addition, most
                  surveyed manufacturers have implemented pharmacy claims edits to
                  prevent coupons from being processed for drugs paid for by Part D.
                  However, manufacturers’ edits may not reliably prevent coupons from
                  being processed for drugs paid for by Part D. In particular, most
                  manufacturers’ claims edits only approximate Part D coverage using proxy
                  data that may be unreliable. Additionally, the proxy data that are currently
                  available may not be obtained by all manufacturers.
                  In addition to potentially implicating the anti-kickback statute,
                  manufacturers’ use of coupons to reduce the cost-sharing obligations for
                  drugs paid for by Medicare Part D could impose costs on Part D plans, on
                  the Part D program, and ultimately on Part D beneficiaries. While
                  coupons provide an immediate financial benefit to beneficiaries by
                  reducing their out-of-pocket costs, they may increase the cost of
                  prescription drugs for Part D plans.35 Coupons may increase costs for
                  Part D plans because they may encourage the purchase of more expensive
                  brand-name drugs instead of less expensive alternative treatments, such as
                  generic drugs.
                  To protect themselves from excessive costs, Part D plans may have an
                  interest in preventing the use of coupons for drugs paid for by their plans.

                  35
                    Manufacturers that desire to assist Federal health care program beneficiaries who
                  cannot afford their copayments have the option of donating to independent charities that
                  provide copayment support without regard for the particular medication a patient may be
                  using. For OIG’s guidance specifically related to such charities, see OIG Special
                  Advisory Bulletin on Patient Assistance Programs for Medicare Part D Enrollees,
                  70 Fed. Reg. 70623 (Nov. 22, 2005), available at
                  http://oig.hhs.gov/fraud/docs/alertsandbulletins/2005/2005PAPSpecialAdvisoryBulletin.p
                  df, and OIG Supplemental Special Advisory Bulletin: Independent Charity Patient
                  Assistance Programs, available at
                  http://oig.hhs.gov/fraud/docs/alertsandbulletins/2014/independent-charity-bulletin.pdf.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)         22
                  However, a lack of coupon transparency impedes Part D plans from
                  distinguishing coupon claims from secondary insurance claims as they are
                  processed. Because entities other than manufacturers cannot identify
                  coupons within pharmacy claims, Part D plans cannot implement their
                  own edits to stop coupon claims as they are processed.
                  Concurrently with the issuance of this report, OIG is issuing a Special
                  Advisory Bulletin on Pharmaceutical Manufacturer Copayment Coupons.
                  This document affirms that the offerors of coupons ultimately bear the
                  responsibility to operate these programs in compliance with Federal law.
                  Pharmaceutical manufacturers that sponsor copayment coupons may be
                  subject to sanctions if they fail to take appropriate steps to ensure that such
                  coupons do not induce the purchase of Federal health care program items
                  or services, including, but not limited to, drugs paid for by Medicare
                  Part D. Failure to take such steps may be evidence of intent to induce the
                  purchase of drugs paid for by these programs, in violation of the
                  anti-kickback statute.
                  Improving the reliability of pharmacy claims edits and making coupons
                  transparent within pharmacy claims will likely require the coordination
                  and cooperation of multiple stakeholders within the pharmacy claims
                  transaction process, including CMS. For this reason, pharmaceutical
                  manufacturers may engage industry stakeholders, including CMS, in an
                  effort to identify a solution to ensure that coupons are not used for drugs
                  paid for by Part D.
                  We recommend that CMS:
                  Cooperate with industry stakeholder efforts to identify a
                  solution to prevent coupons from being used to purchase
                  drugs paid for by Part D
                  As the oversight entity of the Part D program and the custodian of Part D
                  enrollment data, CMS should cooperate with industry stakeholder efforts
                  to improve the reliability of pharmacy claims edits and make coupons
                  transparent. For example, CMS could consider all options to facilitate
                  verification of Part D enrollment status before a coupon is processed. Or
                  CMS could explore the possibility of making any feasible changes to the
                  Part D program to facilitate Part D enrollment verification. Additionally,
                  CMS could explore with all involved entities how best to make coupons
                  universally identifiable and transparent in pharmacy claims transactions.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   23
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendation. CMS specifically noted that it
                  concurs with our recommendation to work with relevant stakeholders to
                  improve the reliability of pharmacy claims edits that facilitate verification
                  of Part D enrollment and to explore how best to make coupons universally
                  identifiable and transparent in pharmacy claims data.
                  For the full text of CMS’s comments, see Appendix B.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   24
                  APPENDIX A
                  Discussion on Data Collection and Analysis
                  We collected information about pharmaceutical manufacturer safeguards
                  directed at preventing the use of coupons for drugs paid for by Medicare
                  Part D through a survey of manufacturers and a review of copayment
                  coupon safeguards. We collected information about other vulnerabilities
                  associated with coupon use from interviews with staff at organizations
                  involved in the pharmacy claims processing system.
                  Drug Selection. We selected the top 100 Part D-covered brand-name
                  drugs by cost that have copayment coupons for the study. These 100
                  drugs with coupons represent approximately 59 percent of all Part D drug
                  costs.
                  To select the top 100 Part D-covered brand-name drugs with coupons, we
                  first identified brand-name drugs that were paid for by Part D as of
                  June 2012 using Prescription Drug Event (PDE) data and First DataBank
                  data.36, 37 Using these data, we matched the NDCs for brand-name drugs in
                  First DataBank data to NDCs in PDE data. Because multiple NDCs exist
                  for a single brand-name drug, we collapsed brand-name drugs by the
                  HICL_SEQNO identifier.38 Next, we summed the total cost for each drug
                  in PDE data by the HICL_SEQNO and the brand name. We then ranked
                  each drug by its total cost.
                  Next, we compiled a list of 520 coupons from
                  www.internetdrugcoupons.com as of December 2012. Internet Drug
                  Coupons publishes a list of pharmaceutical manufacturer coupons and is
                  recognized by the industry as a reliable listing for coupons.
                  Finally, we matched the list of coupons to the list of the Part D-covered
                  brand-name drugs. We selected the first 100 Part D-covered brand-name
                  drugs—ranked by total drug cost—with coupons. Because coupons are
                  offered by drug and generally are not unique by package size, dosage
                  form, or route of administration, we matched the common brand name for
                  the drugs associated with these coupons to the brand names and the
                  HICL_SEQNO identifiers in First DataBank.



                  36
                     The PDE data represent each purchase of a Part D drug by a beneficiary and contain
                  the National Drug Code (NDC), a universal identifier that specifies the pharmaceutical
                  manufacturer, drug name, dosage form, strength, and package size.
                  37
                     First DataBank data provide product information, including drug name, standard
                  therapeutic class, and whether the drug is a brand-name drug or a generic drug.
                  38
                     The HICL_SEQNO identifies a drug’s unique combination of active ingredients,
                  irrespective of the package size, dosage form, route of administration, or strength.


Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)            25
                  Survey of Pharmaceutical Manufacturers. In May 2013, we conducted an
                  online survey of the 34 pharmaceutical manufacturers of the top 100
                  Part D-covered brand-name drugs with copayment coupons.
                  We identified these manufacturers through information on the coupons and
                  Internet searches. We also asked manufacturers to verify this information.
                  We made one followup attempt by email. We received 30 complete
                  surveys, an 88-percent response rate.
                  The survey asked manufacturers to provide responses about the safeguards
                  in place for the coupons they offer. We asked manufacturers to report the
                  coupon formats they offer and distribution methods through which
                  patients obtain coupons. We also asked manufacturers about the types of
                  safeguards they have in place for each coupon format they offer. We
                  asked them questions about coupon safeguards directed to Part D
                  beneficiaries, safeguards directed to pharmacists, and safeguards within
                  the pharmacy claims transaction system. We did not ask manufacturers to
                  specify the particular safeguards in place for each of the top 100
                  Part D-covered brand-name drugs.
                  We analyzed survey responses to identify specific manufacturer
                  safeguards and determine the extent to which manufacturers surveyed had
                  safeguards in place. For each type of safeguard identified, we calculated
                  the number of manufacturers using the safeguard for at least one of their
                  coupon formats. We also calculated the number of manufacturers with
                  each safeguard by coupon format.
                  OIG Review of Coupon Safeguards. We reviewed copayment coupon
                  safeguards for a subset of the top 100 Part D-covered brand-name drugs
                  with coupons to determine whether safeguards directed to beneficiaries
                  and pharmacies existed. OIG attempted to obtain 50 coupons, and we
                  reviewed safeguards for the 40 coupons that we obtained. The coupons
                  we attempted to obtain were associated with 24 manufacturers, all of
                  which were included in the population of manufacturers that OIG
                  surveyed. We reviewed coupon safeguards that manufacturers had in
                  place from February to June 2013.
                  We reviewed and determined the extent to which manufacturers had
                  safeguards directed to beneficiaries on the Internet, over the telephone,
                  and on the print coupons. For safeguards on the Internet and over the
                  telephone, we determined whether: (1) there was a notice about coupon
                  use in Federal health care programs and (2) the notice was triggered by an
                  eligibility question for Part D coverage. For safeguards on the coupons,
                  we determined whether there was a notice directed to beneficiaries about
                  coupon use in Federal health care programs. For each of these safeguards,



Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   26
                  we calculated the number of manufacturers using it and identified
                  vulnerabilities.
                  We reviewed and determined the extent to which manufacturers had
                  safeguards directed to pharmacists on the coupons. For these safeguards,
                  we determined whether: (1) there was a general notice on the coupons
                  about coupon use in Federal health care programs and (2) there was a
                  specific notice on the coupons that pharmacists will not submit a claim to
                  a Federal health care program for the prescription with the coupons. We
                  considered a general notice to be any other language directed to
                  pharmacists stating that Federal health care beneficiaries are ineligible to
                  use coupons. We considered a specific notice to be any language that
                  indicates the pharmacist agrees or certifies that he or she will not submit a
                  claim for reimbursement under any Federal health care program or
                  certifies that the patient is not enrolled in any Federal health care program.
                  For each of these safeguards, we calculated the number of manufacturers
                  using the safeguard and identified vulnerabilities.
                  As part of our review, we attempted to obtain the coupons for which we
                  reviewed safeguards. For coupons available online, we attempted to
                  download coupons and obtained 40 of them. For coupons available over
                  the telephone, we attempted to receive coupons through the mail but
                  obtained none of them.
                  Structured Interviews. We conducted structured interviews with staff at
                  organizations involved in the pharmacy claims transaction process,
                  including pharmacists, coupon vendors, a switching company, and
                  NCPDP, regarding their experience processing pharmacy claims and
                  coupon claims. We conducted these interviews from February to
                  August 2013.
                  We reviewed structured interview responses to understand other
                  vulnerabilities associated with coupon use. In particular, we discussed the
                  pharmacy claims transaction system and the extent to which coupons are
                  identifiable within it. We also reviewed interview responses to identify
                  vulnerabilities in current safeguards.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   27
                                APPENDIX 8
                                Agency Comments

    /S(.KVIct;s- 1'\­




(           ~             DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Centers for Medicare & Medicaid Services

    <~~                                                                                             Administrator
                                                                                                    Washington, DC 20201




                        DATE:            JUL 3 0 2014

                        TO: 	         Daniel R. Levinson 

                                      Inspector General 


                        FROM: 	       Marflyn Tavenner 

                                      Administrat.or 


                        SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Manufacturer Safeguards May
                                   Not Prevent Copayment Coupon Use for Part D Drugs" (OEI-05-12-00540)


                        The Centers for Medicare & Medicaid Services (CMS) appreciate the opportunity to provide
                        comments on the above mentioned draft report. This draft report assesses the vulnerability of the
                        Part D program to the use of manufacturer's copayment coupons. We are also concerned about
                        the appropriate use of manufacturer's copayment coupons and agree with the OIG that the use of
                        manufacturer's coupons to reduce cost-sharing obligations for drugs paid for by Medicare Part D
                        could impose costs on Part D plans, the Part D program, and ultimately Part D beneficiaries.

                        OIG Recommendation

                        The CMS should cooperate with industry stakeholder efforts to identify a solution to prevent
                        coupons from being used to purchase drugs paid for by Part D.

                        Specifically, the OIG noted that CMS should cooperate with industry stakeholder efforts to
                        improve the reliability of pharmacy claim edits, including considering all options and any
                        feasible changes to the Part D program, to facilitate verification of Part D enrollment status
                        before a coupon is processed. The OIG also suggested that CMS could explore with all involved
                        entities how best to make coupons universally identifiable and transparent in pharmacy claims
                        transactions.

                        CMS Response

                        The CMS concurs with the recommendation to work with all relevant stakeholders to find a
                        meaningful solution to prevent inappropriate use of manufacturers' copayment coupons for drugs
                        paid for by Part D. CMS concurs with OIG's suggested recommendation to work with relevant
                        stakeholders to improve the reliability of pharmacy claim edits that facilitate verification of Part
                        D enrollment and to explore how best to make coupons universally identifiable and transparent
                        in pharmacy claims data.

                        Thank you for the opportunity to review and comment on the draft OIG report.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)                                                28
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago regional
                  office, and Laura Kordish, Deputy Regional Inspector General.
                  Melissa Baker served as the team leader for this study, and Jonathan Jones
                  served as the lead analyst. Central office staff who provided support
                  include Clarence Arnold and Meghan Kearns.




Manufacturer Safeguards May Not Prevent Copayment Coupon Use for Part D Drugs (OEI-05-12-00540)   29
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
